CERTIFICATE OF WORD COUNT
Lee Loder v. Icemakers, Inc.
Document Title: Writ of Certiorari

Pursuant to Rule 33.1(h) of the Rules of this Court, I
certify that the accompanying Writ of Certiorari of
Petitioner Lee Loder, which was prepared using Century
Schoolbook 12-point typeface, contains 1334 words,
excluding the parts of the document that are exempted by
Rule 33.1(d). This certificate was prepared in reliance on
the word-count function of the word- processing system
(Microsoft Word) used to prepare the document.

I declare under penalty of perjury that the foregoing is
true and correct. Dated this 9th day of November, 2020.

/s/LeeLoder

Loder, PC

PO Box 13545, Birmingham, AL 35202
loder@loderpc.com (205)326-0566
